<html>
<title> - HEARING ON THE NOMINATION OF REGINA McCARTHY TO BE ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND RADIATION, OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 111-1185]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1185
 
                      HEARING ON THE NOMINATION OF
                    REGINA McCARTHY TO BE ASSISTANT
              ADMINISTRATOR, OFFICE OF AIR AND RADIATION,
                 OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
   94-027 PDF                WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                          
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                               (II)
                               
                               
                               
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 2, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6
Dodd, Hon. Christopher J., U.S. Senator from the State of 
  Connecticut....................................................     8
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    72
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................    73
Kerry, Hon. John, U.S. Senator from the State of Massachusetts, 
  prepared statement.............................................    73
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    73
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut, prepared statement................................    74

                               WITNESSES

McCarthy, Regina, nominated to be Assistant Administrator, Office 
  of Air and Radiation, of the Environmental Protection Agency...    11
    Prepared statement...........................................    13
    Responses to additional questions from:
        Senator Boxer............................................    17
        Senator Lautenberg.......................................    19
        Senator Sanders..........................................    21
        Senators Inhofe, Voinovich, Vitter, and Bond.............    23
        Senator Vitter...........................................    60
        Senator Barrasso.........................................    62
        
        
        
        
        
        
        
        
        
                                 (III)
        
        
        


     HEARING ON THE NOMINATION OF REGINA McCARTHY TO BE ASSISTANT 
   ADMINISTRATOR, OFFICE OF AIR AND RADIATION, OF THE ENVIRONMENTAL 
                           PROTECTION AGENCY

                              ----------                              


                        THURSDAY, APRIL 2, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Voinovich, and 
Udall.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. This morning the Environment 
and Public Works Committee will consider President Obama's 
nomination of Gina McCarthy to be the Assistant Administrator 
of the Office of Air and Radiation at the U.S. Environmental 
Protection Agency. I am so pleased that President Obama has 
selected someone with such a strong background in clean air 
protection for this critical role at the EPA.
    Gina McCarthy comes to this position with nearly three 
decades of experience in public service and a unique record of 
accomplishment in addressing air pollution, including 
greenhouse gas emissions, and at the State level in 
Massachusetts and Connecticut. Gina McCarthy was appointed by a 
Republican Governor, Jodi Rell of Connecticut, and brings to 
this role a spirit of bipartisanship that I greatly appreciate.
    The Office of Air and Radiation oversees the development of 
national programs, policies and regulations for addressing air 
pollution and radiation exposure. This nomination is especially 
important to the people of my State. California faces some of 
the most dangerous air pollution issues in the Country. 
Pollution around our ports, including the Ports of Los Angeles 
and Long Beach, is responsible for increased rates of 
respiratory diseases, including cancer, among families who live 
near those facilities. We have actually tracked those cancers 
and we can see that.
    The California Air Resources Board estimates that diesel 
emissions contribute to 2,000 premature deaths each year. The 
health costs of diesel emissions are billions of dollars each 
year. Millions of people in areas like the Central Valley and 
the Inland Empire experience dangerous air pollution day after 
day.
    The Obama administration has already begun to reverse many 
of the previous Administration's environmental rollbacks. 
During his first week in office, President Obama announced an 
EPA review of the California waiver decision. In a speech to a 
joint session of Congress, President Obama underscored his 
support for a market-based cap on carbon. The EPA has sent the 
endangerment finding to the Office of Management and Budget, 
and there are reports that it will be released very soon. These 
are positive developments.
    I am also pleased that EPA has recently taken steps to test 
dangerous air pollution around schools, including schools in my 
State. I believe this program should be expanded so that any 
school where children may be exposed to dangerous air pollution 
is addressed.
    This is a pivotal time for the EPA. I am very pleased to 
see that under the leadership of Administrator Jackson, EPA has 
already begun to reverse the damage that was done under the 
previous Administration and return the EPA to its mission to 
protect the public health and the environment. The Assistant 
Administrator for Air and Radiation will play a crucial role in 
continuing that process.
    I look forward to hearing from today's nominee. I took 3 
minutes to do that speech, so that is what we are going to give 
everybody today, 3 minutes for an opening, and then we will get 
right to Regina McCarthy, who I would her to take her seat, if 
she would.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. First of all, 
that Office of Air and Radiation at the Environmental 
Protection Agency is very, very significant. It has a great 
effect on our economy. I want to say to Ms. McCarthy, thank you 
very much for the inconvenience you had to go to to meet with 
me way over at the Armed Services Committee. I appreciate that 
very much.
    It is my understanding, Madam Chairman, that you want to 
hold a business meeting on Ms. McCarthy's nomination the week 
that we return, which at this point I have no problem with 
that. I think I would agree with you. But first, I need to 
provide a little historic context, which has nothing to do with 
Ms. McCarthy. This all happened before.
    The Senate has not confirmed a nominee for this position in 
8 years, not since 2001. It is due entirely to the opposition 
of my colleagues on the other side of the aisle. Opposition 
arose from allegations that nominees failed to provide timely 
and complete answers to questions submitted to them, and in 
effect, Madam Chairman, the standard was set by you and by the 
Democrats on this Committee. In order to advance this nominee 
as expeditiously as possible, as you have stated, and I have 
agreed that we need to do, the minority will need to timely 
complete the answers to our questions.
    I want to say that Ms. McCarthy has already done this. We 
received a document this morning. We haven't had a chance to 
review it yet. I am sure there are some things that we may want 
to pursue.
    As I indicated earlier, the next Assistant Administrator of 
Air will face several daunting regulatory challenges. These are 
just a few, meeting the new deadlines for attainment of 
National Ambient Air Quality Standards, addressing interstate 
air pollution, continuing reductions in mercury and other 
hazardous air pollutants, implementing the next phase of the 
renewable fuel standard and a pending decision on the 
California waiver.
    Ms. McCarthy, these issues by themselves will overwhelm you 
and your calendar. And yet as time-consuming as these policies 
will be, they pale in comparison to what would ensue if 
CO<INF>2</INF> becomes a regulated pollutant under the Clean 
Air Act. If the EPA makes an endangerment finding under the 
Act, and according to recent new accounts, this decision has 
already been made by the Administration, it could extend EPA's 
regulatory reach into every corner of the economy.
    Ms. McCarthy, I hope that you will approach pending 
decisions on the greenhouse gas regulation with great care, and 
to the extent that you can, ensure that the concerns of small 
businesses, families, and every American who uses energy would 
receive proper hearing. I have had the pleasure of meeting you 
briefly and I have every reason to believe you would be very 
cooperative. We look forward to getting this information from 
you.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you, Chairman Boxer, for calling this hearing today. 
I welcome you, Ms. McCarthy, to our committee and I look 
forward to working with you.
    The Office of Air and Radiation at the Environmental 
Protection Agency issues regulations that protect the air we 
breathe. Those regulations also significantly impact the 
American economy. For these reasons, the job of Assistant 
Administrator for Air entails serious responsibilities. This 
committee and the full Senate, therefore, must thoroughly 
assess the qualifications of the nominee to head the office.
    I understand, Madam Chairman, that you wish to hold a 
business meeting on Ms. McCarthy's nomination the week we 
return from recess. At this point, I have no objection to that 
schedule. But first, I need to provide a little historical 
context. The Senate has not confirmed a nominee for this 
position in 8 years--due entirely to opposition from my 
colleagues on the other side of the aisle.
    Opposition arose from allegations that nominees failed to 
provide timely and complete answers to questions submitted to 
them. In effect, Madam Chairman, a standard was set by you and 
your colleagues: in order to advance this nomination as 
expeditiously as possible, the minority will need timely and 
complete answers to our questions. Let's hope that occurs.
    As I indicated earlier, the next Assistant Administrator 
for Air will face several daunting regulatory challenges. Let 
me list a few: meeting new deadlines for attainment of national 
ambient air quality standards; addressing interstate air 
pollution; continuing reductions in mercury and other hazardous 
air pollutants; implementing the next phase of the renewable 
fuel standard; and a pending decision on the California waiver.
    Ms. McCarthy, these issues by themselves will overwhelm 
your calendar. And yet as time-consuming as these policies will 
be, they will pale in comparison to what will ensue if 
CO<INF>2</INF> becomes a regulated pollutant under the Clean 
Air Act. If EPA makes an endangerment finding under the Act--
and according to recent news accounts, this decision has 
already been made by the Administration--it could extend EPA's 
regulatory reach into every corner of the U.S. economy.
    Ms. McCarthy, I hope that you will approach pending 
decisions on greenhouse gas regulation with great care, and to 
the extent you can, ensure that concerns from small businesses, 
families, and every American who uses energy receive a proper 
hearing.
    I had the pleasure of meeting you briefly yesterday, and I 
value your commitment to public service. You have an impressive 
background in serving Connecticut and Massachusetts with 
distinction. I look forward to hearing more about your record 
today.
    As you well know, Ms. McCarthy, there is an enormous amount 
at stake here. If the policies pursued are not pursued with 
great care and restraint, this great machine we call America 
will grind to a halt. That's something I know everyone here 
wants to avoid. So I urge you to work with us--majority and 
minority--in addressing the issues now before us and those yet 
to come.

    Senator Boxer. Thank you so much, Senator.
    Senator, we are checking on that 8 years, because we 
believe that Mr. Wehrum was in that position--I am sorry----
    Senator Inhofe. But he was not confirmed.
    Senator Boxer. No, I am sorry, Homestead was in that 
position. But we will find the exact date, because I would be 
shocked that it was 8 years.
    Senator Inhofe. OK, that is fine. And I am glad that you 
are shocked.
    Senator Boxer. It wasn't 8 years.
    Now, here is the situation. We have Senator Dodd with us. 
We are so happy he is here to introduce Regina McCarthy. Is 
your schedule tough or can you wait 9 minutes? It is up to you.
    Senator Dodd. Absolutely I can wait.
    Senator Boxer. You are OK, all right, wonderful. Then we 
will go to Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Ms. McCarthy, welcome, thank you for 
bringing Senator Dodd with you this morning. I understand you 
might have brought a couple of people from your family, too, 
and we look forward to welcoming them.
    I will just say right now to those who are gathered from 
the McCarthy clan, what was your maiden name?
    Ms. McCarthy. My nickname is Gina, my maiden name is 
McCarthy and my husband's name is McCarey. Confusing.
    [Laughter.]
    Senator Carper. That is a lot of Irish. I hope you are 
lucky, we need some luck. We are glad you are here, we welcome 
you and thank you for your willingness to serve.
    For those in your family that are here, thank you for your 
willingness to share a good woman with us. Ms. McCarthy and I 
come from parts of the Country that I refer to as the end of 
the Nation's tail pipe. And it is great to live in Delaware, it 
is great to live along the east coast. But that is one aspect 
that we don't like, and we are anxious to do something about 
it.
    I know you tried to address air pollution in your State 
through a multi-pollutant approach. You had impressive results 
and we are encouraged by that. We think in----
    Senator Boxer. I am sorry, we are in a debate over here.
    [Laughter.]
    Senator Inhofe. We are listening to everything you say.
    Senator Boxer. It is the usual Boxer-Inhofe debate. I am so 
sorry. Please. You have the floor.
    Senator Carper. Thanks so much. I will start over again.
    [Laughter.]
    Senator Carper. In too many respects, opportunities for 
progress on clean air have largely been squandered over the 
last 8 years. It seems like every time we want to get something 
done, every major clean air regulation that the Bush 
administration has tried to move has been rejected by the 
courts. And as a result, we are left with no meaningful Federal 
regulations to clean up our dirtiest fossil fuel power plants.
    And as the Assistant Administrator for Clean Air, you will 
need to write at least, I think, three major rules in the next 
couple of rules to replace the Clean Air Interstate Rule, to 
replace the flawed mercury rule and replace the participate 
matter rule. You will need to implement vital air toxic risk 
rules that have been shelved or unfunded by the last 
Administration.
    As if that is not enough, you are going to be called on to 
address how we move forward on climate change and on renewable 
fuels under the Clean Air Act. You have a tough road ahead, but 
I am encouraged that you are experienced and your achievements 
have shown that you can rise to the challenge. We need leaders 
like you who can build alliances. We need people who can build 
alliances and work with Congress and determine a path forward 
that strengthens our economy and protects our air quality.
    So we look forward to working with you, we plan to be your 
partner in these challenges. Congratulations and good luck.
    [The prepared statement of Senator Carper follows:]

           Statement of Hon. Thomas R. Carper, U.S. Senator 
                       from the State of Delaware

    Thank you, Chairman Boxer, for having this hearing today.
    As Chairman of the Senate Subcommittee on Clean Air and 
Nuclear Safety, I warmly welcome Ms. Gina McCarthy to our 
Committee today. I look forward to today's discussion.
    Ms. McCarthy and I both come from States that are at the 
end of what I like to call ``the Nation's tailpipe.'' She has 
tried to address air pollution in her State through a multi-
pollutant approach. And she has had impressive results.
    But if confirmed--Ms. McCarthy--you've got your work cut 
out for you.
    As you know, we've had 8 years of delays on clean air. 
Every major clean air regulation by the Bush administration has 
been rejected by the courts.
    As a result, we are left with no meaningful Federal 
regulations to clean up our dirtiest fossil-fuel power plants.
    As the Assistant Administrator for Clean Air, you will need 
to write at least three major rules in the next few years to 
replace CAIR, the flawed mercury rule, and the particulate 
matter rule.
    You will need to implement vital air toxic risk rules that 
have been shelved or unfunded by the last Administration.
    And if that is not enough work, you will also have to 
address how we move forward on climate change and on renewable 
fuels under the Clean Air Act.
    You face a tough road ahead. But your experience and 
achievements have shown you will rise to the challenge.
    We need leaders like you who can build alliances, work with 
Congress, and determine a path forward that strengthens the 
economy and protects our air quality.
    I especially look forward to working with you, Ms. 
McCarthy, and hope we can move your nomination through quickly.

    Senator Boxer. Senator Carper, thank you.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman.
    I first of all want to thank your family for the sacrifices 
that you have made so that Regina could serve. If you think you 
have made sacrifices in the past, believe me there are going to 
be a lot more of them. Because the job that she has been 
nominated for is one of the toughest jobs in the Environmental 
Protection Agency.
    The fact that Ms. McCarthy brings over 20 years of 
experience as an environmental regulator on both the local and 
State level, I know those experiences are going to serve her 
well in her new capacity.
    I am comforted by the fact that you have had State 
experience, and as a result of that I think will have a better 
understanding of what the implications are of the decisions 
that you are going to be making on just ordinary folks out in 
the States.
    As Assistant Administrator for Air and Radiation, Ms. 
McCarthy will be responsible for administering some of the most 
complex and contentious regulatory issues facing the Obama 
administration. And those issues include the EPA's decision on 
the California waiver request, EPA's decision on endangerment 
and regulation of greenhouse gas emissions under the Clean Air 
Act, and implementation of the next standards and regulations 
to air toxins, some of the toughest stuff that you can deal 
with.
    Subsequent to the courts vacating a series of the Bush 
administration's rules limiting emissions from power plants, 
Ms. McCarthy, you are going to have to decide how to address 
the regional transportation of emissions and Section 126 
petitions filed by downwind States, have to write and implement 
regulations to reduce mercury emissions from coal-fired power 
plants and using EPA's authority to regulate greenhouse gas 
emissions under the Clean Air Act. That is a little bit 
troubling to me.
    As evidenced by the Agency's advance notice of proposed 
rulemaking on the issue, CAA regulation would set forth a 
multitude of costly, burdensome programs regulating nearly 
every aspect of Americans' lives. The Act's principal 
regulatory programs were enacted decades ago for the purpose of 
controlling regional and local air pollution. It was designed 
to not address the global phenomena like greenhouse gases.
    So I think that all of these things are going to have to be 
taken into consideration. I hope that, well, I am confident 
that you will try to throw the ball down the middle as I talked 
to with you when you were in the office. I think we are 
fortunate to have someone like you who is interested in this 
job and has the experience and hopefully will help the 
Administrator do the job that needs to be done for the American 
people.
    Thank you.
    [The prepared statement of Senator Voinovich follows:]

          Statement of Hon. George V. Voinovich, U.S. Senator 
                         from the State of Ohio

    Madam Chairwoman, thank you for having today's hearing.
    Today we consider President Obama's nomination of Gina 
McCarthy to be EPA's Assistant Administrator for Air and 
Radiation. Having served as a mayor, Governor and now as a 
Senator, I understand the impact that decisions made in 
Washington, DC can have on our local, State and national 
economies. Mrs. McCarthy brings with her over 20 years' 
experience as an environmental regulator on both the local and 
State level and I trust that those experiences will serve her 
well in this new capacity. Inside the Washington beltway, many 
of the policies we debate take on ideological and often 
academic overtones as if they exist in a vacuum--detached from 
workers and families we were sent here to serve. When we go 
back home, however, the implications of the actions taken here 
in Washington are all too apparent. Mrs. McCarthy, should you 
move on to the post to which you have been nominated, I hope 
you keep in mind the impacts your decisions will have on 
everyday Americans.
    As Assistant Administrator for Air and Radiation, Mrs. 
McCarthy will be responsible for administering some of the most 
complex and contentious regulatory issues facing the Obama 
administration. Those issues include--EPA's decision on the CA 
Waiver request; EPA's decision on endangerment and regulation 
of greenhouse gas emissions under the Clean Air Act (CAA); 
revisions to, and implementation of, the National Ambient Air 
Quality Standards (NAAQS) and standards and regulations 
relating to air toxics. Subsequent to the court's vacating a 
series of the Bush administration's rules limiting emissions 
from power plants, Mrs. McCarthy will need to decide how to 
address the regional transportation of emissions and section 
126 petitions filed by downwind States. She will also have to 
write and implement regulations to reduce mercury emissions 
from coal-fired power plants.
    The use of EPA's authority to regulate greenhouse gas 
emissions under the Clean Air Act is particularly troubling. As 
evidenced by the agency's Advance Notice of Proposed Rulemaking 
(ANPR) on this issue, CAA regulation would set forth a 
multitude of costly, burdensome programs regulating nearly 
every aspect of Americans' lives. The Act's principal 
regulatory programs were enacted decades ago for the purpose of 
controlling local and regional air pollution. The Act was not 
designed to address a global phenomenon environmental like 
climate change in an efficient and effective manner.
    The agency has thus far attempted to get around this fact 
by exploring a number of legal theories in which the Act might 
be creatively interpreted to allow EPA to implement various 
policy alternatives that the Agency believes might reduce GHG 
emissions in an equitable and cost effective manner. However, 
the courts have not agreed with EPA's attempts to read 
flexibility into the Act and have blocked the agency from 
applying its own notions of efficient air quality policy--the 
DC Circuit's vacating the Clean Air Interstate Rule being a 
prime example. If EPA proceeds with GHG regulation under the 
CAA, it is my belief that it will find that it has much less 
policy discretion than is reflected in the ANPR and that 
regulating GHG emissions under the CAA will be much more costly 
than the agency believes. Indeed, CAA regulation may very well 
mean imposing costly requirements not only on utilities and 
manufacturers, but commercial buildings, including hospitals 
and schools.
    Climate change may be the single most significant issue 
that has been before this committee, touching every sector of 
the economy and having immense energy, economic, environmental 
and national security consequences. It is my hope that Congress 
enacts a sensible program to reduce emissions, ensure energy 
security and provide for economic stability and that we abandon 
the arcane path laid out by the CAA. But this will be no easy 
task and policies that tax Americans trillions of dollars and 
implement vast new government programs are not a viable 
alternative.
    Enacting cost effective climate legislation will not be an 
act of mere political will, but of thoughtful consideration. 
And because it may take us some time to move forward, I would 
remind the agency that is under no legal obligation to act 
quickly. Given the very difficult legal and policy issues at 
play, as well as the extremely high stakes involved, EPA should 
take the time necessary to understand the regulatory 
consequences of its actions.

    Senator Boxer. Thank you so much, Senator.
    Senator Udall.
    Senator Voinovich. Madam Chairman.
    Senator Boxer. Yes.
    Senator Voinovich. Do you mind if I ask that the rest of my 
written statement be included in the record?
    Senator Boxer. Absolutely, it will be included.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair. I would also like to 
just put my full statement into the record.
    Senator Boxer. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Udall. I will talk briefly, because I want to hear 
from Chris Dodd and from Gina McCarthy.
    I rode up in the elevator with Chris and he told me that 
you were one of the folks who was involved in putting in place 
the first cap and trade, what I think has been called the 
regional greenhouse gas initiative. I think having that 
experience is very important to the position that you are 
moving into. While you may be being sent notes of caution about 
moving forward, I would encourage the Environmental Protection 
Agency to move forward with all deliberative speed to make sure 
that you do what you can under the law. It is not clear to me 
that the Congress is going to act. I am one of the ones who 
really believes that we need to act and we need to act 
urgently.
    But I think it is important that the authority that you 
have, that you understand what it is. I believe the EPA is 
moving forward right now with a registry, which I think is a 
very good first step, because we can't put a regimen in place 
until we know who is emitting and where they are and under what 
conditions they do it. So I am one of the one who would just 
urge you, move forward, keep it going, that will keep the 
pressure on the Congress, because I think we need that tension 
and dynamic to get things done.
    With that, I will yield back my time and look forward to 
hearing from Chris Dodd and then from Gina. Thank you.
    Senator Boxer. Thank you, Senator Udall.
    We are going to call on Senator Dodd. He has 5 minutes to 
introduce you. But I thought it would be nice, before he 
starts, if you would introduce your family, so we know who is 
here.
    Ms. McCarthy. Thank you, Madam Chairman, I appreciate that 
very much.
    Let me begin by introducing my husband, Ken McCarey. And I 
have my three wonderful children, that is Maggie and Daniel and 
Julie. I have my sister Elaine, who is a middle school teacher 
who has been teaching U.S. history for many decades to middle 
school children, God bless her.
    [Laughter.]
    Ms. McCarthy. She may be the only person who is more 
excited to be here than I am.
    [Laughter.]
    Ms. McCarthy. I have my sister-in-law Mona McCarey and my 
brother-in-law, Paul.
    Senator Boxer. Thank you so very much.
    Senator Dodd.

        OPENING STATEMENT OF HON. CHRISTOPHER J. DODD, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Dodd. Thank you very much, Madam Chair. Let me 
express my pleasure in being here with you this morning and 
introducing Gina to the Committee. Having listened to the 
comments of our colleagues here, I think you are going to be 
pleasantly, not surprised, but pleased to be able to deal with 
someone who brings as much experience and background to the 
issues before the Committee.
    She has been nominated, as you pointed out, to the 
important post of Assistant Administrator for Air and Radiation 
and EPA. And of course, that is her family here, we are 
delighted to see all of them as well with us this morning.
    I want to congratulate President Obama for nominating such 
a remarkable, qualified, energetic and passionate individual 
who cares about these issues as much as Gina does. She has 25 
years of experience working at all levels of local and State 
government, and has a depth and breadth of knowledge on 
environmental issues that few can rival. She has also served in 
both Democratic and Republican Administrations of Governors, so 
that bipartisanship that George Voinovich was talking about, 
Tom Carper referenced as well, the ability to work under a 
variety of different political experiences I think has been 
worthwhile.
    She worked in Massachusetts as well as in Connecticut, all 
of whom have recognized her as a uniquely talented 
environmental advocate. As Commissioner of Connecticut's 
Department of Environmental Protection since 2004, she has 
amassed a very, very impressive record of accomplishments. She 
spearheaded the No Child Left Inside program, an initiative in 
Connecticut and nationwide which combines environmental 
education with numerous outdoor programs to promote physical 
activity while teaching kids to become good stewards of our 
environment.
    She has advised Governor Jodi Rell on how to stimulate 
sustainable economic development in our State, has worked 
tirelessly to reinvigorate our State park system and has been a 
terrific advocate for open space and conservation initiatives. 
Perhaps most prominently, and again, this was referenced by Tom 
Udall, she was the driving, one of the important forces behind 
the creation of the regional greenhouse gas initiative, the 
Nation's very first mandatory cap and trade program which was 
adopted by 10 States in the northeast to address the grave 
threats of climate change. The Commission's work on this issue 
of climate change has been recognized and lauded nationally. 
Her experience will be, I think, invaluable when she is 
confirmed as Assistant Administrator for Air and Radiation.
    President Obama has made it clear that addressing climate 
change is a top priority of his. As the Assistant 
Administrator, I think Gina will provide a very important role 
in developing, implementing and working with people across the 
spectrum on this issue, which will be critically important. I 
know that there is no unanimity on this issue. But to have 
someone of her background and experience, both politically and 
substantively on these issues I think will be a great, great 
addition to the debate and discussion.
    In my view, this is a rather incredible list of 
accomplishments, does not do justice to the qualities that Gina 
will bring to her new position if she is confirmed. Across our 
State, she has the well-deserved reputation for boundless 
energy, incredible passion and willingness to speak frankly in 
order to address challenges. Much has been made of her enormous 
impact since the March 14th Hartford Courant ran an editorial 
entitled DEP Chief Gina McCarthy a Hard Act to Follow, which 
praised both her passion for the issues and her pragmatic 
approach. The Courant specifically noted her ability to 
revitalize a department which had lost the public's trust and 
engaged people across our State in preserving Connecticut's 
landscape and Long Island Sound in a comprehensive, bipartisan 
fashion.
    Once again, I want to congratulate Gina McCarthy, and I 
want to thank her family as well. As it has been pointed out by 
George Voinovich, this is a tough job to take on. But you have 
in front of you an individual who has the demonstrated ability 
to take on tough jobs and succeed at it by listening to people 
and working together. I think that is something we are all 
looking for in people who are willing to take on these 
tremendous responsibilities.
    So I am very honored and pleased this morning to be able to 
present to you Gina McCarthy as the nominee for this very 
important position.
    [The prepared statement of Senator Dodd follows:]

          Statement of Hon. Christopher J. Dodd, U.S. Senator 
                     from the State of Connecticut

    Chairman Boxer, members of the Committee, thank you for 
holding this hearing. It is with great pleasure that I 
introduce Gina McCarthy, who has been nominated to the 
important post of Assistant Administrator for Air and Radiation 
at the Environmental Protection Agency. I would also like to 
welcome her husband, Kenneth McCarey, and her children, David, 
Maggie, and Julie.
    I congratulate President Obama on nominating such a 
remarkably qualified, energetic, and passionate individual to 
serve as Assistant Administrator. Commissioner McCarthy has 25 
years of experience working at all levels of local and State 
government and has a depth and breadth of knowledge on 
environmental issues that few can rival. She has also served 
under both Democratic and Republican Governors, in 
Massachusetts as well as my home State of Connecticut, all of 
whom recognized Gina as a uniquely talented environmental 
advocate.
    As Commissioner of Connecticut's Department of 
Environmental Protection since 2004, Gina has amassed an 
impressive record of accomplishments. She spearheaded the ``No 
Child Left Inside'' Initiative in Connecticut and nationwide, 
which combines environmental education with numerous outdoor 
programs to promote physical activity while teaching kids to 
become good stewards of the environment.
    She has advised Governor Jodi Rell on how to stimulate 
sustainable economic development in our State, has worked 
tirelessly to reinvigorate our State park system, and has been 
a terrific advocate for open space and conservation 
initiatives.
    Perhaps most prominently, Commissioner McCarthy was one of 
the driving forces behind the creation of the Regional 
Greenhouse Gas Initiative (RGGI), the Nation's first mandatory 
cap and trade program, which was adopted by 10 States in the 
northeast to address the grave threat of climate change. The 
Commissioner's work on the issue of climate change has been 
recognized and lauded nationally, and her experience will be 
invaluable when she is confirmed as Assistant Administrator for 
Air and Radiation.
    President Obama has made it clear that addressing climate 
change is a top priority for his Administration, and as 
Assistant Administrator, Gina will play a vital role in 
developing and implementing policies to control greenhouse gas 
emissions.
    In my view, this incredible list of accomplishments does 
not do justice to the qualities Gina will bring to her new 
position once she is confirmed. Across my State she has a well-
deserved reputation for her boundless energy, incredible 
passion and determination, and willingness to speak frankly in 
order to address challenges head on.
    Indeed, she has made such an enormous impact that on March 
14th, the Hartford Courant ran an editorial entitled ``DEP 
Chief Gina McCarthy a Hard Act to Follow,'' which praised both 
her passion for the issues and her pragmatic approach. The 
Courant specifically noted her ability to revitalize a 
department which had lost the public's trust and engage people 
across the State in preserving Connecticut's landscape and Long 
Island Sound.
    Once again, I congratulate Gina McCarthy on her nomination 
and thank the Committee for holding this hearing. Gina, while 
we are sad to see you leave Connecticut, I know you will 
continue to be the outstanding advocate for the environment and 
public health you always have been, and I look forward to 
working with you in your new position at the EPA.

    Senator Boxer. Thank you so much.
    Ms. McCarthy, you will be happy to know that Senators 
Kerry, Kennedy and Lieberman have also put very strong 
statements into the record supporting you.
    We are delighted, you have the floor now. And thank you, 
Senator Dodd, I know you have a hectic morning. We so 
appreciate the time you took to be here.
    Senator Dodd. Thank you, Madam Chairman.
    Senator Boxer. Ms. McCarthy.

    STATEMENT OF REGINA McCARTHY, NOMINATED TO BE ASSISTANT 
      ADMINISTRATOR, OFFICE OF AIR AND RADIATION, OF THE 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Madam Chairman. I first want to 
thank you, Chairman Boxer, as well as Ranking Member Inhofe, 
for holding the hearing, and all the Committee members who took 
their time today to be here and express their thoughts, as well 
as your willingness to meet with me and speak with me over the 
past weeks.
    I also obviously want to recognize and especially thank 
Senator Dodd, not only for all of his years of support to me 
and his kind words, but also for the leadership he has provided 
to the Great Nutmeg State, and also to this Nation.
    If I may, I would like to recognize again my family, my 
husband and my children, who are the lights of my life. I also 
would be negligent if I didn't recognize the entire McCarthy-
McCarey clan back home, who we told could not be here today 
because they would get too rowdy. When two large Irish families 
merge, you are never alone again. And for the most part, that 
is a good thing.
    [Laughter.]
    Ms. McCarthy. But I do want to thank them for their years 
of love and support.
    I am deeply honored and I am thrilled to be nominated as 
Assistant Administrator for Air and Radiation at EPA by 
President Obama and to be before you today asking for your 
support. I also want to recognize Administrator Lisa Jackson. I 
can't thank her enough for wanting me to be part of her 
terrific team at a time when I believe that there is so much 
that needs to get done, but also great promise and opportunity.
    For the past 25 years, I have worked on air quality, 
radiation and climate issues. In the last 10, I have overseen a 
number of critical decisions, both in the Commonwealth of 
Massachusetts and most recently over the past 4 years in 
Connecticut, where I have been the Commissioner of the 
Department of Environmental Protection.
    I have been deeply involved in the development of the 
regional greenhouse gas initiative, the passage of the 
Connecticut State law to reduce greenhouse gas emissions and 
other efforts to combat NO<INF>x</INF>, SO<INF>x</INF> and 
mercury emissions. Simply put, I care deeply about these 
issues.
    And we all know that science around air quality, radiation 
and climate is extremely complex. In fact, some of the most 
complicated scientific modeling and assessment that is underway 
at EPA actually takes place in this particular Air office. And 
I am sitting here today not because I am a scientist, but 
because like President Obama and Administrator Jackson, I 
intend to leave the science to the scientists. If confirmed, I 
will reach out to the EPA scientists and I will commit to them 
and I will commit to you and to this Committee today that I 
will fully consider their work in each and every decision that 
I recommend to the Administrator. Science will be the backbone 
of our decisionmaking process. That is what Administrator 
Jackson has promised and that is what I will deliver.
    If confirmed, I will sit down with EPA's professional 
policy and program staff, who I already know to be smart, 
capable, dedicated and passionate public servants, and I am 
going to ask them, how do we get the job done in ways that not 
only meet the letter of the law but the spirit of the law. The 
rule of law will be the fundamental principle that will guide 
our actions. That is what Administrator Jackson has promised, 
and that is what I will deliver.
    And then I am going to open a few windows in my office and 
around OAR so we can let in some fresh air, that is, if the 
windows in a Federal office building actually open. Because 
there is lots of work to be done, and we need clean, fresh air, 
and we need fresh ideas. Administrator Jackson made a promise 
that her EPA will be transparent in its decisionmaking, and 
that is again what I will deliver. Because transparency is more 
than sharing what the science and the law is telling us, and it 
is more than making clear decisions that can stand the test of 
time, which we all know is of paramount importance.
    Transparency is all about letting in and embracing new 
ideas, new technologies and new approaches. No individual 
entity or agency, no matter how smart, how old or how 
experienced, can afford to stop learning. I can attest through 
my own personal experience that brainstorming with oneself is 
not very productive. In fact, the most successful people and 
agencies I know are open to new ideas, but they also actively 
seek them out.
    So if I am confirmed, my office will reach out for the best 
and the brightest ideas we can find in the world today, so we 
can be better prepared for the challenges ahead and all that 
the future may bring.
    But above all else, if confirmed, I will keep my eyes on 
the real prize, that is, saving lives by protecting our 
environment. Air pollution kills people and makes them sick, a 
lot of people, each and every day, each and every year. And 
climate change, if greenhouse gas emissions remain unchecked, 
has the potential to rob my children, Daniel, Maggie and Julie, 
and to rob all of our children of their rightful future.
    So my deliverable, if confirmed, will be clean air and 
Federal leadership on climate. If confirmed, I will work 
tirelessly to reach out, to listen and to learn both inside and 
outside the Agency on behalf of Administrator Jackson. I will 
speak plainly and I will speak truthfully about the lives that 
are being lost, the responsibilities that we face, the 
challenges ahead, the options we have and the opportunities 
that we can all realize if we face the future together.
    Thank you.
    [The prepared statement of Ms. McCarthy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Senator Boxer. Thank you so much. You made a beautiful 
statement.
    I just want to ask you two questions, then I am going to 
put the rest in the record and you can respond in writing.
    Ms. McCarthy, USA Today had this amazing story about the 
pollution around schools, toxic pollution, not just the run of 
the mill, but toxic pollution. That story broke when 
Administrator Jackson was coming before the Committee and she 
committed to use whatever authority she had to measure the 
amount of this toxic pollution. She has followed up and done 
it.
    The reason I am so excited about your nomination, first of 
all, I think both sides of the aisle agree that you are an 
open, wonderful person to deal with, and that is very helpful. 
But I think it is so hard for Lisa Jackson to do this job 
without someone like yourself backing her up. So my question 
is, if confirmed, will you commit to use the full extent of 
EPA's authority and to work with us to expand the monitoring 
plan around these schools and to address the problem of toxic 
air pollution at schools?
    Ms. McCarthy. Senator, thank you for the question. First of 
all, thank you for your leadership on this issue. I did happen 
to catch the video of the hearing for Administrator Jackson, 
and I know you challenged her and I do know she stepped up and 
she is meeting that challenge. What I will commit to you today 
is that the Air Program, under my watch, will have children's 
health as the No. 1 issue. As you have recognized, children are 
the key to protecting the air quality and the public health in 
this Country. If we can protect the children, the adults come 
along with it.
    So you are absolutely right to point out that issue, and 
Administrator Jackson has rallied the resources of the Agency, 
and I will, if confirmed, go back to the Agency, get a good 
understanding of the schools that they have identified and why. 
We will make sure that we work with the State and local level 
to do testing that is necessary to identify the risks and to 
move forward as quickly as possible to reduce any risks that we 
find.
    Senator Boxer. I so appreciate that. I think across the 
board, we all believe that our kids, the least we can do for 
our kids is allow them to grow up in a healthy fashion. Ever 
since I came to the Congress, and I learned more about the 
danger that children face when we don't face danger, it is the 
recognition that children are just not little adults. We tend 
to think they are, but everything is changing in their bodies 
and they can't handle some of the toxins that we can handle at 
our ages.
    I know that Senator Carper is a real leader on the mercury 
issue. I want to ask you a question about mercury. I know that 
you know it is a potent toxin on the human nervous system. And 
it is especially dangerous to infants, children and pregnant 
women. Coal-fired power plants are one of the biggest sources 
of mercury pollution in America. Common sense dictates that we 
make every effort to limit exposure to this dangerous toxin.
    I know your answer will be yes to this, but I just want to 
get it on the record, will you listen to EPA scientists and the 
children's health advisors in issuing new mercury air pollution 
standards for power plants?
    Ms. McCarthy. Yes, I will.
    Senator Boxer. I don't have any other questions, but I will 
tell you what I am going to do with my last moment. I want to 
ask Arvin Ganesan to stand up for a second and make sure our 
colleagues know that Arvin worked for Frank Lautenberg for 
quite a while here. EPA stole him away from us, and he is 
Deputy Associate Administrator at EPA. He is helping with this 
confirmation. We just want to say how nice it is to see you 
here, our EPA family welcomes you back.
    There is one more thing I have to do, I have to ask you, do 
you agree if confirmed as Assistant Administrator of EPA's 
Office of Air and Radiation to appear before this Committee or 
designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities as Assistant Administrator?
    Ms. McCarthy. I do.
    Senator Boxer. And do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
communication are provided to this Committee and to its staff 
and other appropriate committees in a timely manner?
    Ms. McCarthy. I will.
    Senator Boxer. And do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed as Assistant Administrator?
    Ms. McCarthy. No, I do not.
    Senator Boxer. Very good.
    Senator Inhofe, the floor is yours.
    Senator Inhofe. Thank you, Madam Chairman.
    Let me do this, I want to make sure that it is real clear, 
because I hold you in a very high regard, I think we are very 
fortunate to have someone like you willing to take on a very 
difficult task. But I had made the statement that we wanted to 
be sure to get some questions responded to by you prior to the 
time that your confirmation vote may come up. Yesterday when we 
talked I gave you a list of five things, of which you have 
already answered four, I think to our satisfaction. I haven't 
had a chance to read it yet, so you have been a lot faster than 
I have.
    The other is, we are going to have questions on the record. 
Now, as I understand the rules of the Committee, and I think 
you probably are aware of this, but maybe you are not, we have 
until Thursday to get our questions into the record, then you 
have 1 week after that. So this would mean that the questions 
we have given you and those that are on the record, you will 
have by Thursday. Then you have 7 days after that to do that.
    So I just want to mention that, I want to make sure that 
you get on the record on some things that are meaningful to us.
    Ms. McCarthy. Senator, I will do everything I can to get 
you as complete an answer as possible.
    Senator Inhofe. I believe that.
    Also, in addition to the questions that the Chairman asked 
you, I will ask you a couple of questions that I already asked 
you once before, but I would like to do it in the hearing, and 
that you would be just as responsive to the minority as you are 
the majority in giving us information that we are asking for.
    Ms. McCarthy. I absolutely will.
    Senator Inhofe. All right. And the other thing I was asking 
you, most of your experience has been in the northeast, which 
of course is where Lisa Jackson also is from. So I wanted to 
ask you about some of your background in dealing with things in 
my part of the Country.
    Ms. McCarthy. I suppose I should confess that it is not 
unusual that we are both from the northeast, because that is 
where we got to know each other. Lisa Jackson and I did work on 
the regional greenhouse gas initiative together, which is one 
of the regional initiatives that I have worked on.
    I also work on national issues, Senator. I know that the 
issues are unique in every region. I have done considerable 
work across the Country. I also chair a national group that is 
looking to develop a national greenhouse gas registry, it is 
called the Climate Registry. So I do have considerable interest 
and expertise and experience in air quality issues across the 
Country. I will do my best, as I did in New England, to 
represent their interests. If I am confirmed, I will do my best 
to represent the national interests to the extent that I can.
    Senator Inhofe. All right. That is good.
    It is always difficult when we talk on these issues about 
the economy and about costs. In fact, some areas you are 
precluded from considering the costs. However, in those areas 
where the law does not have this restriction, would you do what 
you can to, where legally permitted, or I might ask you this, 
what approach would you use in balancing the costs with 
environmental protection, where the law allows?
    Ms. McCarthy. Senator, I will.
    Senator Inhofe. All right. We have had several times in the 
past, when we are considering and going through all these 
things, dealing with CASAC, Clean Air Scientific Advisory 
Committee. What do you see as their role and your interaction 
with CASAC?
    Ms. McCarthy. That committee, Senator, is extremely 
important in providing advice to the agency on many critical 
issues. I have already in my opening statement made a 
commitment that I will let science drive the decisionmaking. I 
will listen and be advised by the council. I will work with 
Administrator Jackson to do the best I can to meet her 
commitment that science is a fundamental principle of the 
Agency's decisions, and I will carry that out as well.
    Senator Inhofe. Can you think of a scenario by which you 
might have to disagree with CASAC?
    Ms. McCarthy. I do think that, Senator, there are opinions 
that need to come into the agency, there is advice that we need 
to take. But we also need to be guided by the rule of law, and 
we also need to pay attention to all of the comments that are 
produced during a rulemaking procedure, and I will take all 
those comments into consideration and I will make sure that all 
those comments are fully considered.
    Senator Inhofe. I think that is very reasonable. And when I 
say that, I have to say that during a Republican 
Administration, at that time I believe there were 21 scientists 
on CASAC where we found disagreement with them on some things. 
There is some level of independence, but in terms of being 
guided by science, I think you have answered the question that 
you are going to give every consideration to them.
    I think Senator Udall would probably agree with my asking 
you this question and would want to join in on asking it, and 
that is on your views about coal and the future of coal.
    Ms. McCarthy. Senator, I agree with the President in his 
assessment that coal is a vital resource for the Nation and it 
will remain so for a considerable amount of time. The challenge 
we have in facing all of our air pollution challenges, as well 
as our climate challenges, is to make sure that we produce the 
kind of technologies that will keep coal viable and also take 
care of the air pollution and the greenhouse gas emissions that 
are emanating from those facilities.
    We know that coal is here. We need to put our energy and 
our ingenuity and our resources to keeping it and making it as 
clean as possible.
    Senator Inhofe. I appreciate that, because we still have to 
run this machine called America. Right now, maybe the 
percentage is a little high, but about half the generation does 
come from coal. That has to be a consideration.
    Madam Chairman, I don't have any further questions and I 
have to go to Armed Services hearings. So I thank you very much 
for spending the time with me that you did, and I look forward 
to working with you.
    Ms. McCarthy. Thank you so much, Senator.
    Senator Boxer. Senator Inhofe, thank you for your gracious 
comments. We hope this nominee does move forward.
    I just want to underscore what Senator Inhofe said about, 
and I know you will, information that frankly, any committee 
member asks for, whatever side of the aisle, it is really 
important. Information is power and information is what we 
need.
    So I know you will do that, but I want to make sure my 
colleague understands that when I asked you those series of 
questions, it was on behalf of the entire committee, not just 
the majority.
    Senator Carper, you will finish it up and close it out.
    Senator Carper. That is great. We will break for lunch 
around 2.
    [Laughter.]
    Senator Carper. There is a lot of legislation we want to 
move while I have this gavel in my hands.
    Just to follow up on what Senator Inhofe and Senator Boxer 
just said, when I was, oh, I think I had been here about 3, 
maybe 4 years as a member of the Senate and a member of this 
Committee. We were trying, I offered legislation focusing on 
four pollutants from the utility sector, sulfur dioxide, 
nitrogen dioxide, mercury and CO<INF>2</INF>. We asked the 
Administration and we asked EPA to model our proposals, the 
President's so-called Clear Skies proposal, and a proposal 
offered by Senator Jeffords on dealing with carbon dioxide 
emissions. And we asked the Administration to model all three 
and just share with us the information that came from that. 
They wouldn't do it, wouldn't do it under Administrator 
Christie Whitman, a close friend of mine, wouldn't do it under 
the leadership of Mike Leavitt, a close friend of mine, all 
Governors together. It wasn't because they didn't want to, it 
was because I think the Administration wouldn't let them.
    Finally, we literally held up the nomination of Stephen 
Johnson for a while just to make the point that we needed that 
kind of information. So having known what it is to feel like 
when we were in the minority and not getting the information 
that frankly we needed to make those smart decisions, wise 
decisions with respect to climate change, I think the points 
that you have heard made here in that regard, now that the shoe 
is on the other foot, and we are in the majority and in the 
White House, that we will be fairer in the way that we respond 
and more appropriate in the way we respond to requests. That is 
a point I wanted to underline.
    In the time we were together recently we had a chance to 
talk about the Clean Air Interstate Rule. As you know better 
than me, in December the D.C. Circuit Court of Appeals remanded 
the Bush administration's Clean Air Interstate Rule and the 
decision that essentially keeps the Clean Air Interstate Rule 
in place for an undetermined amount of time, while EPA must 
rewrite the rule. You come from a State and have worked in a 
couple of States that are very much impacted by the Clean Air 
Interstate Rule. I would just ask, do you believe that the CAIR 
went far enough to help States meet our ambient air qualities?
    Ms. McCarthy. Senator Carper, first, let me thank you for 
all of your leadership on air quality issues. I think your 
State and the States that I have worked for share a common 
concern about taking care of the transport of air pollution 
that comes from upwind States. I will say that CAIR was a 
gigantic step forward, but the lack of CAIR at this point, or 
at least phase two, the further reductions and the long-term 
strategy, is a significant problem.
    I will say, speaking on behalf of the little State of 
Connecticut that CAIR actually didn't go far enough.
    Senator Carper. In Delaware, we think of Connecticut as a 
big State.
    Ms. McCarthy. It is a big State, I am sorry, you are 
absolutely right.
    Senator Carper. Like California.
    [Laughter.]
    Ms. McCarthy. The huge State of Connecticut, speaking on 
their behalf, even with CAIR the State of Connecticut would 
never have achieved attainment. So to answer your question, no, 
CAIR did not go far enough. We have not yet addressed the 
transport of air pollution as we need to. But my understanding 
is that EPA is on a 2-year path to correct that. If I am 
confirmed, I will tell you that that will be one of the 
priorities for me to take care of and to keep them on that time 
line.
    Senator Carper. When you think of CAIR, and we think of 
trying to reduce emissions of sulfur dioxide and nitrogen 
dioxide, just talk with us a little bit about where is the 
opportunity, the role for the regulators, for the regulatory 
agency, EPA to move forward, and what opportunities would you 
suggest for us to pursue in the Congress?
    Ms. McCarthy. I think that EPA is on some significant time 
lines for rulemaking requirements. You have mentioned CAIR. We 
also have a utility MACT standard that we need to get out to 
deal with mercury and other hazardous air pollutants. We are on 
some significant time lines here, and I know that President 
Obama and Administrator Jackson want Federal leadership on 
greenhouse gases as well. It is my goal to keep my eye on the 
prize in terms of rulemaking, but to also work with Congress.
    It has been very clear that President Obama wants a cap and 
trade program for greenhouses gases at the Federal level. I 
will support that in any way I can, and I will work with you 
and others. I know you have other legislative initiatives that 
you want to propose that will help us align some of our 
rulemaking moving forward. I will be happy to help with that as 
well.
    But in my opinion, it is going to need change in 
legislation, as well as moving strongly and quickly on 
rulemakings.
    Senator Carper. I have worked with several of my colleagues 
here on the Committee, most notably Lamar Alexander, for a 
number of years, and with Senator Voinovich as well, all of us 
ironically all former Governors, who end up here, all of us 
worked very actively in the National Governors Association and 
played leadership roles there. I had an opportunity to work 
closely on these issues here.
    When I began in 2001 and 2002 working on clean air issues 
involving the utility sector, my initial thought was not to 
favor an economy-wide climate change bill, but just to focus on 
the utility sector to see if we couldn't get that done. And 
while we were focusing on utilities for CO<INF>2</INF>, we 
would also address SO<INF>x</INF>, NO<INF>x</INF> and mercury. 
My thinking has evolved over time to say that maybe we should 
do an economy-wide CO<INF>2</INF> bill, but I am still very 
much interested in addressing the other issues of 
SO<INF>x</INF>, NO<INF>x</INF> and mercury, because of health 
issues involving your constituents and mine.
    In your own thinking, where might a three-pollutant 
approach that involves sulfur dioxide, nitrogen oxide and 
mercury fit into climate-wide approach on CO<INF>2</INF>, if at 
all? I am almost to the point, I hope we are going to move a 
climate-wide bill on CO<INF>2</INF>. I hope it is going to be a 
cap and trade bill, I hope it is a bipartisan bill at the end 
of the day. But I also want to make sure we get the rest of the 
other three pollutants this year, either in the context of an 
economy-wide bill or a CO<INF>2</INF> or on its own.
    Would you just share your thinking, kind of think out loud 
with us on this?
    Ms. McCarthy. Senator, as you know, when I was in the 
Commonwealth of Massachusetts, way back when, we did actually a 
four-pollutant regulation that basically focused on the State's 
coal-fired power plants. I am proud of that work. It gave us a 
lot of opportunity to create certainty in that regulated 
community, so they knew what the target was. It also gave us a 
wonderful opportunity to leverage investments in one and do it 
in a way that met standards in a second pollutant.
    That is the kind of thinking I think that EPA needs to 
bring to the table as it coordinates its rulemaking procedures. 
And there are opportunities there. There is no question that 
some of the changes that you are going to see in terms of 
pollution emission technology reductions, the reductions in the 
emissions as a result of technologies, will also benefit us 
from a CO<INF>2</INF> perspective.
    But CO<INF>2</INF> will be a significant challenge. It is 
not just going to be about pollutant emission control 
technology. It is also going to be things like investments in 
energy efficiency, investments in renewables. It is a much 
larger portfolio of tools that you can bring to the table. Many 
of those tools are actually going to be economically 
beneficial. That is really what we need to bring to the table; 
how do we do this in a common sense way, how do we really drive 
a clean energy economy.
    Senator Carper. Thank you for that response.
    My time is expired, I will just ask you to respond briefly 
to this. In light of the court decisions regarding mercury and 
the Clean Air Interstate Rule and other attempts by the 
previous Administration really to delay clean air regulations, 
what do you think might be your top two clean air priorities 
for this year, for 2009? And how can we help?
    Ms. McCarthy. I appreciate that, Senator.
    Senator Carper. Especially Senator Udall and me, well, he 
has gone. I guess he has bailed on me.
    Ms. McCarthy. I will tell you, Senator, that if confirmed I 
have to sit down with the professional staff at EPA and we need 
to develop a work list. One of the things I was looking at and 
thinking about was when Senator Inhofe and Senator Voinovich 
were first speaking, they sort of gave a litany of all the 
challenges ahead. I felt like going ahh, and running out of the 
room a little bit. There is a lot of work that needs to get 
done.
    But it is very clear to me what the President has on his 
mind and it is clear to me what Administrator Jackson has on 
her mind. They have a need to establish Federal leadership on 
climate. That will be No. 1. And they have a need to address 
other air pollutant issues like CAIR and mercury. Those will 
always be my top challenges.
    Senator Carper. Good. All right. I want to thank you for 
being here today. And thank you for your stewardship. I think 
it is kind of interesting, you have worked, as I understand it, 
your current Governor, what is her name?
    Ms. McCarthy. Jodi Rell.
    Senator Carper. Jodi Rell, yes. I understand she is a 
Republican who succeeded a Republican. And in Massachusetts, 
did you work for Governor Romney?
    Ms. McCarthy. I did.
    Senator Carper. And now you are here in a Democratic 
Administration. I think that is interesting. Maybe it explains 
at least in part why some of our Republican colleagues who are 
here today seemed comfortable with you serving in this role.
    What have you found has enabled you to work well within two 
Republican administrations in the States of Massachusetts and 
Connecticut and now be prepared to come and work in a 
Democratic Administration here in our Nation's capital? What is 
it about your approach to your responsibilities that enables 
you to do that?
    Ms. McCarthy. I think it is fairly simple, Senator, I 
listen. I try to listen well. And I really have never met and 
environmental challenge that couldn't have a common sense 
solution, that couldn't be at least addressed significantly in 
ways that take the economy in mind and look at jobs. I think 
maybe it is my middle class background. I came from a working 
family, my dad was a public school teacher in the Boston 
schools for 40 years. My mom worked as a waitress, in a 
plastics factory, did some nurse's assistant work. My first 11 
years working in government was at the local level. I knew the 
people that I was regulating. I saw their faces, I heard their 
voices. I see them now.
    So that no matter what level of government I serve, I 
listen to that, and I understand both the need to drive the 
reductions we are looking for in terms of emissions and 
improving air quality and the value that that brings to public 
health.
    But I also know that a job is important. I have always had 
one, and I always will.
    Senator Carper. Thank you for that. My father, who is now 
deceased, used to say to my sister and me at least once a week, 
sometimes at least once a day, when we pull some boneheaded 
stunt, he would say to my sister and me, just use some common 
sense. He didn't say it quite that nicely. He said it to us 
over and over. And I am sure you can think of things that your 
parents said to you to drum into your head. I see your three 
children here, they can probably tell us some things that you 
say to them, you and your husband say to them, to try to get to 
them over and over, unrelentingly. I am tempted to call them to 
the witness table.
    In fact, let me just ask, while I have time, obviously your 
husband and children can't sit at the table and testify on your 
behalf, but if they could, what might be some things that they 
might say that in your own lives, as you raised all four of 
them, or all three of them----
    [Laughter.]
    Senator Carper. As you have raised them, some things that 
they have noticed and seen in you that might suggest you could 
do we in this arena?
    Ms. McCarthy. That is a really good question. I am glad you 
are not asking them.
    Senator Carper. Anything come to mind? Maybe it is not a 
fair question.
    Ms. McCarthy. Actually, I think they know how much I value 
work. I do work hard, but I am also a very thoughtful person. I 
don't jump to conclusions. When they have asked me crazy 
things, I don't jump and say, no, what are you, nuts? We talk 
it through and we come to conclusions together. I respect their 
opinions and I think they respect mine, and I think that is 
what I bring to the table.
    Senator Carper. All right, that is good. I think that is 
pretty much it.
    I want to just mention that some of my colleagues who 
couldn't be here, we have other hearings going on. I have 
several going on right now that I need to rush off to. But some 
of our colleagues are going to be submitting questions in 
writing to follow up. They are due, I believe, 10 a.m. next 
Thursday. So that gives you about a week to work on your 
answers. Judging from what Senator Inhofe said, it sounds like 
you are pretty prompt in doing that kind of thing.
    We are just delighted that you are here, and happy to have 
a chance to meet the members of your family. To those of the 
extended clan, wherever they are, Massachusetts or Connecticut, 
we extend our best to them.
    Ms. McCarthy. Thank you, Senator.
    Senator Carper. Thank you so much, and with that, this 
hearing is adjourned.
    [Whereupon, at 10:50 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madam Chairman, thank you for holding this hearing today.
    The range of issues facing the EPA Assistant Administrator 
for Air is dizzying.
      National air quality for smog and soot and the Clean Air 
Interstate Rule, or CAIR,
      Controlling mercury emissions,
      The acid rain program,
      The renewable fuel standard, which we discussed at a 
hearing chaired by Senator Carper yesterday,
      Atomic radiation standards,
    And that doesn't include the preeminent issue of 
controlling greenhouse gas emissions in our battle against 
global warming, including the California Waiver issue.
    We will be looking to you to provide new leadership at EPA. 
We need rules and regulations that are based on good science 
and the rule of law . . . rules and regulations that don't get 
over-turned by the courts.
    Your pledge to support sound science and to rely on the 
expert advice of Clean Air Act attorneys is refreshing.
    I must note that your record in the Federal courts on these 
issues has been better than the EPA's in recent years.
    The full range of clean air issues are of great importance 
to Maryland.
    In my State, we had 55 days in 2007 in which air quality 
was unhealthy.
    Cecil County, as part of the Philadelphia-Wilmington area, 
and all the counties which comprise the Baltimore metropolitan 
region, are classified as in ``severe'' non-attainment for 
ozone. The Maryland counties here in the Washington 
metropolitan region are in ``serious'' non-attainment for 
ground-level ozone.
    Altogether that means more than 5.6 million Marylanders are 
forced to breathe unhealthy air every summer. And that's 5.6 
million too many.
    Smog is more than a nuisance--it is a real and persistent 
health threat. For our most vulnerable--our children, the 
elderly, and those who are already unhealthy--ozone can lead to 
heart and lung damage, and even death.
    We have a host of State impacts from other clean air 
issues:
      Mercury pollution is poisoning our fish . . . and has 
led to fish consumption advisories all across the State.
      Hazardous air pollutants continue to pose immediate 
health threats to many.
      Air deposition of nitrogen oxides onto the Chesapeake 
Bay watershed is one of the leading causes of nitrogen 
pollution in the Bay. Scientists estimate that 30 percent of 
the excess nitrogen in the Bay comes from air deposition. 
Controlling air pollution is a critical element in restoring 
the health of the Chesapeake.
    And as I mentioned at the beginning of my remarks, the 
effects of global warming are of grave concern. Climate change 
is affecting Maryland today. Sea levels are rising, putting 
thousands of acres of the low-lying Eastern Shore at risk of 
flooding.
    On March 18th, Maryland participated in its third cap-and-
trade auction under the Regional Greenhouse Gas Initiative, a 
program that you helped design.
    The lesson of the RGGI experience is plain and reassuring: 
cap-and-trade works.
      Thousands of tons of pollution credits were successfully 
auctioned,
      Electricity prices didn't skyrocket, and
      Industries didn't close.
    Instead,
      Pollution was reduced,
      Carbon markets were given certainty, and
      Maryland received millions of dollars in auction revenue 
that it is using to promote energy conservation, to develop 
clean, renewable energy programs, and to provide financial 
support for the low income energy assistance program.
    I hope that you will take a few minutes today to speak 
about RGGI and its effectiveness.
    I look forward to Ms. McCarthy's testimony.
    Thank you, Madam Chairman.

            Statement of Hon. Bernard Sanders, U.S. Senator 
                       from the State of Vermont

    The Office of Air and Radiation is responsible for 
administering a number of important programs and policies 
within the Environmental Protection Agency. These include 
programs on energy efficiency and green buildings, greenhouse 
gas and air pollution reduction, and radioactive waste. It is 
critical that we increase our use of renewable energy and 
reduce our emissions.
    It is also critical that we protect the public. Vermont 
receives a significant portion of its power supply from nuclear 
power at the Vermont Yankee plant. I believe it is important 
for Federal agencies such as the Office of Air and Radiation to 
ensure that regulations relating to the public's health and 
safety, particularly during emergencies, should be based on the 
best available science.
    I am pleased to see the nominee's dedication, reflected in 
her statement, to returning EPA to its appropriate role of 
being an agency focused on using the best available science in 
carrying out national policy objectives. I look forward to 
working with the nominee and the Committee to ensure these 
important national objectives are realized.

              Statement of Hon. John Kerry, U.S. Senator 
                    from the State of Massachusetts

    Everyone who knows Gina McCarthy understands that long 
before it was fashionable, she lived out a special 
determination to make every day Earth Day.
    For more than a quarter of a century, she's been absolutely 
tireless working to save our planet, holding influential 
positions, most of them in Massachusetts.
    She's an excellent choice to be Assistant Administrator for 
Air and Radiation at the Environmental Protection Agency.
    President Obama has promised to make climate change one of 
his top initiatives. His choice of Gina is an important step in 
making good on that promise. It's crucial that he do so and 
that we act quickly--because time is running out.
    Ignoring climate change will have devastating effects--more 
famine, more drought, more widespread pandemics, more natural 
disasters, more resource scarcity, and human displacement on a 
massive scale. That's why we're already at work on it in the 
Senate Foreign Relations Committee.
    Gina is a familiar face for those of us from Massachusetts. 
She held a number of high level positions in our State, all of 
which she used to improve our environment. That was after she 
had the good sense to get a good education in our State--at the 
University of Massachusetts and Tufts University.
    But she eventually went on to serve Connecticut to be 
Commissioner of the State Department of Environmental 
Protection. She used that position to produce an innovative 
Climate Change Action plan and to push the Regional Greenhouse 
Gas Initiative to cap greenhouse gas emissions and create a 
region carbon market.
    Gina also promoted conservation and the expansion of the 
State park system through a great program called ``No Child 
Left Inside.'' It's no secret that today's kids spend a great 
deal of time indoors. But it was Gina brought them outdoors so 
they could experience nature firsthand instead of on TV or on a 
computer screen.
    Gina has served under two Republican Governors--Mitt Romney 
in Massachusetts and Jodi Rell in Connecticut. So her selection 
also demonstrates how serious the President is about 
bipartisanship.
    Gina has demonstrated a level of achievement worthy of this 
important position. Economist Gary Yohe thinks so. Yohe, who 
shared the 2007 Nobel Prize with Al Gore, said Gina will bring 
``energy and excitement'' to the Obama administration.
    I couldn't agree more. And as chairman of the Foreign 
Relations Committee, I can't wait to work with her and the EPA 
to keep the energy and excitement flowing to ensure the long-
term health of our global environment. We've got no time to 
waste--and we need Gina at the helm.

           Statement of Hon. Edward M. Kennedy, U.S. Senator 
                    from the State of Massachusetts

    Chairman Boxer, I appreciate the opportunity to offer my 
strong support for President Obama's nominee, Regina McCarthy, 
to be the Assistant Administrator for Air and Radiation at EPA.
    Ms. McCarthy is an outstanding choice for this important 
position. Her strong background in environmental policy at the 
State and local levels has given her a sharp understanding of 
how essential it is to have the cooperation of all levels of 
government, the private sector, and NGOs in pursuing broad 
national policies affecting the environment.
    Such cooperation will be especially important at a time 
when the new Administration and this Committee, under the 
extraordinary leadership of Senator Boxer, will be developing a 
major initiative to control greenhouse gas emissions and 
prevent climate change.
    This challenge is urgent, and we have delayed too long 
already in meeting it. I'm proud that a leader from 
Massachusetts will be at the forefront of this effort in the 
Obama administration, especially since coastal States such as 
ours are facing an increasingly grave threat from rising sea 
levels.
    The breadth of issues involving the Office of Air Quality 
spans all forms of pollutants, from reducing vehicle emissions 
to improving indoor air quality; from controlling environmental 
health impacts to encouraging new technology to make the Nation 
less dependent on fossil fuels. The mandate is broad, and 
Regina McCarthy is an excellent candidate for this position.
    I urge the Committee to approve her nomination, and I look 
forward to working with her and the Committee on these 
fundamental issues in the coming weeks. Thank you for the 
opportunity to testify today.

          Statement of Hon. Joseph I. Lieberman, U.S. Senator 
                     from the State of Connecticut

    Thank you, Chairwoman Boxer.
    I strongly support the confirmation of Gina McCarthy to 
head the Office of Air and Radiation at the Environmental 
Protection Agency (EPA). She is extremely knowledgeable, 
accessible and very clearly a passionate environmentalist. She 
has been an asset to me and my staff and I was thrilled when 
the President announced her nomination.
    Ms. McCarthy's strong environmental record speaks for 
itself. As Commissioner of Connecticut's Department of 
Environmental Protection, Ms. McCarthy worked tirelessly to 
protect our State's air, land and water. She helped pioneer our 
region's approach to addressing climate change and she is 
widely recognized as a chief engineer of the Regional 
Greenhouse Gas Initiative.
    Since her appointment in 2004, Ms. McCarthy has fought to 
improve the integrity of Connecticut's parks and forests and 
she has devoted herself to restoring vitality to the Long 
Island Sound.
    Before coming to Connecticut, Ms. McCarthy served with 
distinction in a number of health and environmental roles in 
Massachusetts on both the State and Federal level--including 
positions with the Stoughton Board of Health and Conservation, 
Massachusetts' Hazardous Waste Facility Site Safety Council, 
the Massachusetts Toxics Use Reduction Program and the New 
England Governor's Environment Committee. Ms. McCarthy served 
as Undersecretary of Policy at the Massachusetts Executive 
Office of Environmental Affairs and as the Deputy Secretary of 
Operations to the Office for Commonwealth Development, where 
she oversaw the development and implementation of 
Massachusetts' first Climate Protection Action Plan.
    We have been lucky to have her in Connecticut, and I know 
she will flourish at EPA. I wish her all the best and a hearty 
congratulations on her selection to run the Office of Air and 
Radiation. She has been a great resource to Connecticut and I 
know she will be an asset to the Obama administration.
    Thank you.
  

                                  <all>
</pre></body></html>
